   PEGASYS ACCOUNT BALANCE AND
       TRANSACTION ANALYSIS:
    CONSTRUCTION IN PROGRESS –
OFFICE OF THE CHIEF FINANCIAL OFFICER
 REPORT NUMBER: A040106/B/F/F05020
             MAY 9, 2005
GSA/OIG/A040106/B/F/F05020


                   Pegasys Account Balance and Transaction Analysis:
               Construction In Progress – Office of the Chief Financial Officer
                           Report Number: A040106/B/F/F05020

                                                TABLE OF CONTENTS




EXECUTIVE SUMMARY ................................................................................................ 1
BACKGROUND ................................................................................................................... 1
INTRODUCTION............................................................................................................. 2
BACKGROUND ................................................................................................................... 2
OBJECTIVE, SCOPE, AND METHODOLOGY ............................................................................ 3
RESULTS OF AUDIT...................................................................................................... 3
CONTROLS OVER THE FINANCIAL REPORTING PROCESS SHOULD BE STRENGTHENED TO
REASONABLY ENSURE THAT THE OCFO ACCURATELY REPORTS THE BALANCE OF CIP............. 4
FORMAL SUPERVISORY REVIEW AND APPROVAL OF ADJUSTING JOURNAL ENTRIES WAS NOT
EVIDENT............................................................................................................................ 6

RECOMMENDATIONS................................................................................................... 6
MANAGEMENT COMMENTS ........................................................................................ 7
INTERNAL CONTROLS ................................................................................................. 7
APPENDIX A – MANAGEMENT REPONSE TO DRAFT REPORT ........................... A-1
APPENDIX B – REPORT DISTRIBUTION ................................................................. B-1
GSA/OIG/A040106/B/F/F05020


                Pegasys Account Balance and Transaction Analysis:
            Construction in Progress – Office of the Chief Financial Officer
                        Report Number: A040106/B/F/F05020


                                     EXECUTIVE SUMMARY

Purpose

The purpose of this audit was to provide a basis for reporting on the internal controls
over the quarterly financial statement reporting process for the General Services
Administration (GSA). Specifically, we focused on the controls over the adjusting
journal entries for Construction in Progress1 (CIP) as recorded in the Federal Buildings
Fund (FBF). The objective of our audit was to determine if sufficient evidence exists
that the controls asserted to by management were in place and functioning to ensure
that the CIP line item was properly reported in the quarterly financial statements as of
March 31, 2004.

Background

GSA is required to submit interim unaudited financial statements to the Office of
Management and Budget Office of Federal Financial Management (OMB) on a quarterly
basis. According to OMB Bulletin No. 01-09, Form and Content of Agency Financial
Statements, the quarterly statements should include full accruals.

Results in Brief

We found that GSA should strengthen its internal controls over the review and approval
of adjusting journal entries as part of its quarterly financial statement reporting process.
During our evaluation of the controls over the quarterly financial reporting process for
March 31, 2004, we found the procedures employed to review the adjusting journal
entries submitted by the Greater Southwest Finance Center and the Public Buildings
Service’s Chief Financial Officer should be improved to ensure that adjustments are
based on sufficient, relevant, and reliable data.

Recommendations

We recommend that the Chief Financial Officer (CFO) strengthen controls over the
financial reporting process to ensure that balances are appropriate, assign specific
responsibility for review and approval of adjusting journal entries, and develop a control
process that clearly documents who prepared, reviewed, and approved each adjusting
journal entry.

1
 The United States General Ledger uses the term Construction in Progress, but the General Services
Administration presents this account as Construction in Process in the Quarterly Financial Statements as
of March 31, 2004 and the Fiscal Year 2003 Financial Statements. The Office of Inspector General will
use the term Construction in Progress to refer to the account Construction in Process.


                                                   1
GSA/OIG/A040106/B/F/F05020




                                    INTRODUCTION

This report presents the results of our audit of GSA’s controls over quarterly financial
reporting for the financial statements as of March 31, 2004. The audit was conducted in
coordination with the Audit of the Pegasys Account Balance and Transaction Analysis-
Construction in Progress, and the results are based in part on the work performed for
the aforementioned audit.

Background

Under OMB Bulletin No. 01-09, Form and Content of Agency Financial Statements,
GSA is required to submit interim unaudited financial statements to OMB’s Office of
Federal Financial Management on a quarterly basis. According to OMB Bulletin No. 01-
09, the quarterly statements should include full accruals. Agencies are also required to
develop reliable estimates for line item account balances where quarterly information is
not readily available.

In their efforts to comply with these requirements, officials from the Office of the Chief
Financial Officer’s (OCFO) Financial Consulting and Analysis Division (BCP) download
the unadjusted trial balance from Pegasys, GSA’s accounting system of record, into
Excel spreadsheets and Caseware, a financial preparation system used to prepare
unadjusted reports, on a quarterly basis. After the unadjusted reports are prepared, the
staff accountants test and analyze account balances for reasonableness to identify
causes for significant variances between the current and previous fiscal year to
determine if worksheet adjustments are necessary. In cases where an adjustment is
required, BCP either prepares or requests the appropriate worksheet adjustment from
either the regional finance centers or the Services.

Upon receipt from the regional finance centers or Services, BCP officials analyze the
worksheet adjustments for appropriateness and to obtain an understanding of the
significant issues underlying any adjustments made. Once BCP officials have
determined that all adjustments are appropriate, the adjustments are posted to
Caseware for the applicable account balances. BCP officials then re-analyze all
significant variances at the line item level to better determine the causes of these
variances. Once all worksheet adjustment have been received, reviewed, and entered
by BCP staff, BCP creates a Balance Sheet and Adjusted Income Statement for each of
GSA’s funds. The BCP staff accountant responsible for each fund subsequently
reviews these financial statements to ensure that all adjustments have posted properly.

One account balance for which quarterly information is not readily available, requiring a
worksheet adjustment, is PBS’s CIP. In order to generate the worksheet adjustment,
PBS uses a statistical sample during its quarterly financial reporting process to assess
the accuracy of data in the Real Property Accounting and Depreciation System
(RPADS), which interfaces Pegasys. From the results of this statistical sample, PBS
estimates the worksheet adjustments needed to correct the CIP account balance for


                                            2
GSA/OIG/A040106/B/F/F05020


errors discovered and submits an adjusting journal entry to BCP. For the quarter ended
March 31, 2004, this process resulted in a reclassification of $286 million from CIP to
Property and Equipment (P&E). Consequently, the CIP account balance for FBF was
reported as $1.634 billion on GSA’s March 31, 2004 quarterly financial statements
submitted to OMB.

Objective, Scope, and Methodology

The objective of our audit was to answer the following question as related to controls
over GSA’s quarterly financial reporting process:

Does sufficient evidence exist that the controls asserted to by management were
in place and functioning to ensure that the CIP line item was properly reported in
the quarterly financial statements as of March 31, 2004?

To accomplish our objective, we:

 Reviewed policies and procedures related to the quarterly financial reporting process;
 Reviewed the documentation supporting financial statement adjustments;
 Interviewed OCFO officials to gain an understanding of the Quarterly Financial
  Reporting Cycle;
 Judgmentally selected the CIP statistical sample adjusting journal entry for testing;
 Reviewed the methodology and evaluated the process for developing the CIP
  statistical sample adjusting journal entry;
 Performed substantive analytical procedures on the variance for CIP and the CIP
  statistical sample adjusting journal entry;
 Performed substantive tests on the CIP statistical sample; and
 Reviewed the effectiveness of GSA’s systems of accounting and internal control over
  quarterly financial reporting as of March 31, 2004, based on the internal control
  objectives in OMB’s Bulletin No. 01-02 Audit Requirements for Federal Financial
  Statements.

Initially, our survey work focused on the overall quarterly financial statement process.
However, based on the results of our survey work, we limited our scope to the adjusting
journal entries for CIP. Concurrently, we expanded our testing to include the controls
employed by the PBS Chief Financial Officer over these adjustments. The results of
this review will be reported separately. The audit was conducted from January to
November 2004 in accordance with generally accepted government auditing standards.


                                   RESULTS OF AUDIT

We found that GSA should strengthen its internal controls over the review and approval
of report level adjusting journal entries as part of its quarterly financial statement
reporting process. During our evaluation of the controls over the quarterly financial
reporting process for March 31, 2004, we found the procedures employed by BCP to


                                            3
GSA/OIG/A040106/B/F/F05020


review the adjusting journal entries submitted by the Greater Southwest Finance Center
and PBS’s Chief Financial Officer should be improved to ensure that adjustments are
based on sufficient, relevant, and reliable data. Our testing found several factors that
may have hindered BCP’s ability to discover errors and deficiencies in the adjusting
journal entries. The inability to discover errors and deficiencies in the adjusting journal
entries may increase the risk that misstatements in the quarterly financial statements
will occur.

Controls over the financial reporting process should be strengthened to
reasonably ensure that the OCFO accurately reports the balance of CIP.

The financial reporting procedures used by BCP may not be sufficient to detect errors
and deficiencies in the adjusting entries submitted by the Greater Southwest Finance
Center and PBS’s Chief Financial Officer. Our review of the March 31, 2004 and
September 30, 2003 financial statements found that several errors occurred in the CIP
statistical sample adjusting journal entry that were not discovered by the controls
currently in place, including a material classification error in the September 30, 2003
financial statements.

BCP’s informal procedures used in the preparation of quarterly and annual financial
statements, entitled Documentation of Procedures for Financial Reporting, state that
“the Consolidated Financial Statement Team reviews all adjustments and
reclassifications for appropriateness...” The document further states that “the
Consolidated Financial Statement Team also re-analyzes all significant variances from
the previous fiscal year at the line item level…” According to BCP officials, one of the
primary controls used to review appropriateness is an analysis by staff accountants
based on significant line item balances with variances of approximately 5 percent or
greater. These variance percentages are generated by Caseware and compare the
current period to the same period for the prior fiscal year (i.e., March 31, 2004 to March
31, 2003).

To test the reasonableness of this control we reviewed the variance between the March
31, 2004 and March 31, 2003 CIP balance, as well as the variance between the
December 31, 2003 and December 31, 2002 CIP balance. While the variance between
the March 31, 2004 and March 31, 2003 CIP balance was within the tolerable range
established by BCP, the variance between December 31, 2003 and December 31, 2002
was $655 million or 47.84 percent, exceeding BCP’s tolerable range. We found no
evidence that this large variance prompted BCP officials to further analyze the balances
prior to submission of the December 31, 2003 quarterly financial statements to OMB.
Follow-up with BCP officials and subsequent review of the December 31, 2003
adjusting journal entries found that the primary cause for this variance was that the CIP
statistical sample adjusting journal entry was inadvertently excluded from these
statements. Although BCP discovered the omission, the controls in place did not detect
this error in a timely manner to permit accurate financial reporting to OMB.




                                             4
GSA/OIG/A040106/B/F/F05020


We also attempted to test the variance between the CIP statistical sample adjusting
journal entries for March 31, 2004 and December 31, 2003. However, because the CIP
statistical sample adjusting journal entry was not entered for December 31, 2003, as
stated above, we expanded the scope of our testing to include an analysis of the
variance between the CIP statistical sample adjusting journal entries for March 31, 2004
and September 30, 2003. We determined that this variance was $722 million. Our
review of the transactional data supporting both CIP statistical sample adjusting journal
entries found an error in the September 30, 2003 CIP statistical sample adjusting
journal entry. The error occurred when a project, classified as CIP, was incorrectly
determined to be substantially complete by regional officials and was projected by PBS
as part of the reclassification rate for the September 30, 2003 CIP statistical sample.
This project represented 96.75 percent of the value used by PBS to estimate the total
reclassification between CIP and Property and Equipment (P&E). This resulted in a
$921,285,004.64 misclassification between the balances reported for the CIP line item
and the P&E--Buildings line item in GSA’s Fiscal Year 2003 Financial Statements2.

In addition, while BCP’s current financial reporting procedures provide for analysis of
account balances for reasonableness and the determination of causes for significant
variances, the procedures do not require BCP to review the methodology designed by
the Services to estimate balances in order to ensure the reliability of the reported
account balance. Accordingly, the adjusting journal entries prepared by the Services
may not result in reliable estimates of account balances.

As previously stated, the variance between the March 31, 2004 and the March 31, 2003
CIP balances was within BCP’s tolerable range, prompting no further evaluation by
BCP. Our testing, however, found that several factors in the PBS CIP sampling
methodology hindered the projection of a reliable estimate of the CIP balance.
Specifically, prior to the determination of the sample size for March 31, 2004, PBS did
not define the confidence level or precision and adequately analyze the characteristics
of the population for determining the estimated adjustment to CIP that would reasonably
ensure a reliable estimate.

Despite the fact that the Services share a responsibility in GSA’s financial reporting
efforts, per the CFO Act of 1990, it is ultimately the responsibility of the Chief Financial
Officer to oversee all financial management activities related to GSA’s programs.
Further, OMB Bulletin No. 01-09 states that “reporting entities should assure that
information in the financial statements is presented in accordance with Federal GAAP3
and the requirements of this Bulletin, and that the underlying records fully support the
information.”

While BCP’s procedures for financial reporting require analysis of all significant
variances from the previous fiscal year at the line item level, the controls did not operate
effectively and may not have been sufficient to ensure that GSA accurately reported the

2
  The specifics of this misclassification are detailed in our Alert Report on the Audit of Pegasys Account
Balance and Transaction Analysis: Construction in Progress (Report Number A040106/P/F/W04001).
3
  Federal GAAP (Generally Accepted Accounting Principles) is now simply referred to as GAAP.


                                                     5
GSA/OIG/A040106/B/F/F05020


balance of CIP. As such, BCP should strengthen its controls over the financial reporting
process to ensure that balances are appropriate.

Formal supervisory review and approval of adjusting journal entries was not
evident.

Our review of the controls over financial reporting for the Federal Buildings Fund found
that adjusting journal entries lacked evidence, such as authorized signatures, indicating
that supervisory management formally approved the individual adjusting journal entries.
As a result, we found adjusting journal entries that were incorrectly recorded in the
financial statements.

During our testing of variances for the CIP adjusting journal entry we noted that
depreciation for the September 30, 2003 statistical sample adjusting journal entry was
not entered correctly. PBS submitted an adjustment to the September 30, 2003 trial
balance for Depreciation on Improvement and Renovations for Buildings of
$4,327,242.18, whereas BCP officials entered $432,724.18 into the adjusting journal
entry worksheets. As a result, total depreciation estimated by the OCFO was
understated by $3,894,517.37.

BCP’s Documentation of Procedures for Financial Reporting states that “approved
worksheet adjustments are posted to the financial statement preparation system” and
staff accountants “ensure all adjustments have been posted properly.” However, we
found no evidence that the CIP statistical sample adjusting journal entry for September
30, 2003 was formally reviewed and approved. While supervisory level BCP officials
are involved in the process, supervisory approval does not appear to be based on the
review of source documentation supporting the adjusting journal entry. Without a formal
review and approval process, BCP may not be able to reasonably ensure that adjusting
journal entries have been accurately and appropriately recorded. BCP should develop
a formal review and approval process to ensure that adjusting entries are properly
recorded.


                                RECOMMENDATIONS

We recommend that the Chief Financial Officer:

1) Strengthen controls over the financial reporting process to ensure that balances are
appropriate by:

      a) Reviewing the methodology used by the Services and finance centers to
         prepare adjusting journal entries;
      b) Performing variance analyses and investigating results outside the tolerable
         range established by BCP procedures; and
      c) Documenting the results of the procedures performed.




                                            6
GSA/OIG/A040106/B/F/F05020


2) Assign specific responsibility for review and approval of adjusting journal entries and
develop a control process that clearly documents who prepared, reviewed, and
approved each adjusting journal entry.


                              MANAGEMENT COMMENTS

The Deputy Chief Financial Officer for Financial Policy and Operations has provided
comments to this report, which have been included in their entirety as Appendix A. The
Deputy Chief Financial Officer concurs with the findings of the report and has no further
comments.

                                INTERNAL CONTROLS

As discussed in the Objective, Scope and Methodology section of this report, we
reviewed the effectiveness of GSA’s systems of accounting and internal control over
quarterly financial reporting as of March 31, 2004. We found that the OCFO should
strengthen its internal controls over quarterly financial reporting to reasonably ensure
the appropriateness of adjusting journal entries recorded in the financial statements.




                                             7
GSA/OIG/A040106/B/F/F05020




          APPENDIX A – MANAGEMENT REPONSE TO DRAFT REPORT




                                A-1
GSA/OIG/A040106/B/F/F05020


                       APPENDIX B – REPORT DISTRIBUTION

Report Distribution                                                  Copies

Chief Financial Officer (B)                                            3

Audit Follow-Up and Evaluation Branch (BECA)                           1

Assistant Inspector General for Auditing (JA)                          2

Assistant Inspector General for Investigations (JI)                    1

Deputy Assistant Inspector General for Real Property Audits (JA-R)     1




                                           B-1
